No. 20-1026

In the Supreme Court of the United States
EAGLE TRUST FUND, JOHN F. SCHLAFLY, AND EAGLE FORUM
EDUCATION & LEGAL DEFENSE FUND,
Petitioners,
v.
UNITED STATES POSTAL SERVICE AND LOUIS DEJOY,
POSTMASTER GENERAL, IN HIS OFFICIAL CAPACITY,
Respondents.
CERTIFICATE OF SERVICE
The undersigned certifies that, on this 11th day of August 2021, in addition to
filing the accompanying reply brief via the Court’s electronic filing system, one true
and correct copy of the foregoing document was served by U.S. Priority Mail, postage
pre-paid, on the following counsel:
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
supremectbriefs@usdoj.gov
Counsel for Respondents
In addition, on this 11th day of August 2021, the following email addresses
have also been served electronically:
SupremeCtBriefs@USDOJ.gov
Pursuant to this Court’s order dated April 15, 2020, the undersigned further
certifies that, on this 11th day of August 2021, an original paper copy was served on
the Court – together with one unbound copy – by hand delivery and that petitioners

will expeditiously file booklet-from copies of the reply brief if so requested.
Executed August 11, 2021,
/s/ Lawrence J. Joseph
________________________________
Lawrence J. Joseph

